                                                              NATIONAL SCIENCE FOUNDATION
                                                               OFFICE OF INSPECTOR GENERAL                           I
                                                                                                                     I


                                                -.              -0FFICEQF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM
                                    ---   -   ----       --   --    --    -                  .-   --   -   -.   --   .   -   -



1    Case-Number:--A-08040023                   .-   A                                            Page 1 of 1        I




              We received an allegation that someone else's (the complainant's) idea' appeared in the subjects'
              NSF proposal.2 Our review, however, showed that the idea was not unique to the complainant.
              Further, it appeared in the subjects' NSF proposal as a result of a suggestion by a reviewer on one
              of the subjects7earlier similar NSF proposals.3 As a result of this suggestion, the subjects
              included the idea in their subsequent similar NSF proposal submissions.

              We determined that there was no evidence the subjects had taken the complainant's idea. The
              idea already existed in the field and had been included in the subjects' proposal because of a
              reviewer's suggestion.




    NSF OIG Fonn 2 ( 1 1/02)
